IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

 

TERRANCE TYRELL EDWARDS,

PETITIONER,
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

 

MOTION TO PROCEED IN FORMA PAUPERIS

Pursuant to Title 28, United States Code, ยง 1915(a) and Rule 39 of this Court, applicant
asks for leave to file the Petition for Writ of Certiorari to the Ninth Circuit Court of Appeals
without prepayment of fees or costs in forma pauperis.

The undersigned counsel was appointed pursuant to 18 U.S.C. ยง 3006A. Therefore, it is
requested that the Court grant leave to file the Petition for Writ of Certiorari without prepayment
of fees or costs in forma pauperis.

I declare under penalty of perjury under the laws of the United States of American, the

foregoing is true and correct.

Ab
Dated this 16th day ore 021.

    
 

Respecfujy Submitted,

Stephen R. Hormel, Hormel Law Office LLC
17722 East Sprague Avenue

Spokane Valley, WA 99016

Telephone: (509) 926-5177

Facsimile: (509) 926-4318
